     Congressional Response Report



The Social Security Administration’s
Implementation and Compliance with
   Energy Conservation Policies




        A-15-13-32104 | April 2013
                                              April 30, 2013


The Honorable Henry A. Waxman
Co-Chair, Bicameral Task Force on Climate Change
Ranking Member, Committee on
 Energy and Commence
House of Representatives
Washington, DC 20515

Dear Mr. Waxman:

In a February 25, 2013 letter, you asked that we review issues related to the Social Security
Administration’s (SSA) implementation of climate-change policies.

My office is committed to combating fraud, waste, and abuse in SSA’s operations and programs.
Thank you for bringing your concerns to my attention. The enclosed report highlights facts
pertaining to the issues raised in your letter. To ensure SSA is aware of the information provided
to your office, we are forwarding a copy of this report to the Agency.

If you have any questions concerning this matter, please call me or have your staff contact
Kristin Klima, Congressional and Intra-Governmental Liaison at (202) 358-6319.

                                                    Sincerely,



                                                    Patrick P. O’Carroll, Jr.
                                                    Inspector General

Enclosure

cc:
Carolyn W. Colvin




                WEB: OIG.SSA.GOV | FACEBOOK: OIGSSA | TWITTER: @THESSAOIG | YOUTUBE: THESSAOIG
                          6401 SECURITY BOULEVARD | BALTIMORE, MD 21235-0001
                                              April 30, 2013


The Honorable Sheldon Whitehouse
Co-Chair, Bicameral Task Force on Climate Change
Chairman, Subcommittee on
 Oversight
Committee on Environment and Public Works
United States Senate
Washington, DC 20510

Dear Senator Whitehouse:

In a February 25, 2013 letter, you asked that we review issues related to the Social Security
Administration’s (SSA) implementation of climate-change policies.

My office is committed to combating fraud, waste, and abuse in SSA’s operations and programs.
Thank you for bringing your concerns to my attention. The enclosed report highlights facts
pertaining to the issues raised in your letter. To ensure SSA is aware of the information provided
to your office, we are forwarding a copy of this report to the Agency.

If you have any questions concerning this matter, please call me or have your staff contact
Kristin Klima, Congressional and Intra-Governmental Liaison at (202) 358-6319.

                                                    Sincerely,



                                                    Patrick P. O’Carroll, Jr.
                                                    Inspector General

Enclosure

cc:
Carolyn W. Colvin




                WEB: OIG.SSA.GOV | FACEBOOK: OIGSSA | TWITTER: @THESSAOIG | YOUTUBE: THESSAOIG
                          6401 SECURITY BOULEVARD | BALTIMORE, MD 21235-0001
                                              April 30, 2013


The Honorable Edward Markey
Co-Chair, Bicameral Task Force on Climate Change
Ranking Member, Committee on
 Natural Resources
House of Representatives
Washington, DC 20515

Dear Mr. Markey:

In a February 25, 2013 letter, you asked that we review issues related to the Social Security
Administration’s (SSA) implementation of climate-change policies.

My office is committed to combating fraud, waste, and abuse in SSA’s operations and programs.
Thank you for bringing your concerns to my attention. The enclosed report highlights facts
pertaining to the issues raised in your letter. To ensure SSA is aware of the information provided
to your office, we are forwarding a copy of this report to the Agency.

If you have any questions concerning this matter, please call me or have your staff contact
Kristin Klima, Congressional and Intra-Governmental Liaison at (202) 358-6319.

                                                    Sincerely,



                                                    Patrick P. O’Carroll, Jr.
                                                    Inspector General

Enclosure

cc:
Carolyn W. Colvin




                WEB: OIG.SSA.GOV | FACEBOOK: OIGSSA | TWITTER: @THESSAOIG | YOUTUBE: THESSAOIG
                          6401 SECURITY BOULEVARD | BALTIMORE, MD 21235-0001
                                              April 30, 2013


The Honorable Benjamin L. Cardin
Co-Chair, Bicameral Task Force on Climate Change
Chairman, Subcommittee on
 Water and Wildlife
Committee on Environment and Public Works
United States Senate
Washington, DC 20510

Dear Senator Cardin:

In a February 25, 2013 letter, you asked that we review issues related to the Social Security
Administration’s (SSA) implementation of climate-change policies.

My office is committed to combating fraud, waste, and abuse in SSA’s operations and programs.
Thank you for bringing your concerns to my attention. The enclosed report highlights facts
pertaining to the issues raised in your letter. To ensure SSA is aware of the information provided
to your office, we are forwarding a copy of this report to the Agency.

If you have any questions concerning this matter, please call me or have your staff contact
Kristin Klima, Congressional and Intra-Governmental Liaison at (202) 358-6319.

                                                    Sincerely,



                                                    Patrick P. O’Carroll, Jr.
                                                    Inspector General

Enclosure

cc:
Carolyn W. Colvin




                WEB: OIG.SSA.GOV | FACEBOOK: OIGSSA | TWITTER: @THESSAOIG | YOUTUBE: THESSAOIG
                          6401 SECURITY BOULEVARD | BALTIMORE, MD 21235-0001
The Social Security Administration’s Implementation and
Compliance with Energy Conservation Policies
A-15-13-32104
April 2013                                                                 Office of Audit Report Summary

Objectives                                Our Conclusions

To determine (1) whether the Social       Although we did not validate all the supporting documentation
Security Administration (SSA) met all     provided by the Agency, based on the Office of Management and
requirements set forth in climate-        Budget’s review and approval of the Agency performance, we
change legislation and (2) how SSA        believe SSA is meeting all the requirements set forth in various
implemented the requirements.             pieces of climate-change legislation. Although SSA appears to be
                                          on track to reach all the goals set forth in the applicable legislation,
Background                                SSA should continue to work with General Services Administration
                                          and the Office of Management and Budget to improve its energy
On January 24, 2007, the President        efficiency. We also noted that the Agency’s performance results
signed Executive Order (EO) 13423,        for the various energy measures included both data from the
Strengthening Federal Environmental,      18 delegated buildings as well as Agency-wide data. The Agency
Energy, and Transportation                should consider defining in the Strategic Sustainability Performance
Management. The EO requires that          Plan what data are used for each measure.
Federal agencies lead by example in
advancing the nation’s energy security
and environmental performance by
achieving several goals. The President
signed EO 13514, Federal Leadership
in Environmental, Energy, and
Economic Performance, on October 5,
2009 to enhance EO 13423.

SSA is responsible for reporting
energy performance for 18 buildings
delegated to it by the General Services
Administration. SSA is not
responsible for energy improvements
of non-delegated buildings.

In a February 25, 2013 letter, the
Bicameral Task Force on Climate
Change requested our assistance in
determining whether SSA is taking the
necessary steps to confront the
growing threat of climate change.
TABLE OF CONTENTS
Objectives ........................................................................................................................................1
Background ......................................................................................................................................1
     SSA ............................................................................................................................................2
Results of Review ............................................................................................................................2
     Question 1: Identify the Existing Requirements in Legislation, Regulation, Executive Order,
     and Other Directives that Apply to the Government Entity You Oversee. ...............................3
     Question 2: Assess Whether it is Meeting These Requirements. ..............................................3
           Energy Efficiency ................................................................................................................3
           Renewable Energy ...............................................................................................................5
           Water Consumption Intensity ..............................................................................................6
           Sustainable Buildings...........................................................................................................6
           Federal Fleet Management ...................................................................................................7
           Electronics Stewardship .......................................................................................................7
           Procurement .........................................................................................................................8
           Pollution Prevention and Waste Reduction .........................................................................9
     Question 3: If it is Not Fully Meeting the Requirements, Make Recommendations for
     Improving its Performance. .....................................................................................................10
     Question 4: The Authorities the Government Entity You Oversee Has to Reduce Emissions
     of Heat-Trapping Pollution. .....................................................................................................10
     Question 5: Its Authorities to Make the Nation More Resilient to the Effects of Climate
     Change. ....................................................................................................................................10
     Question 6: The Most Effective Additional Steps it Could Take to Reduce Emissions or
     Strengthen Resiliency. .............................................................................................................11
Conclusions ....................................................................................................................................11
Appendix A – Social Security Administration-Delegated Buildings ......................................... A-1
Appendix B – February 25, 2013 Congressional Request ......................................................... B-1
Appendix C – Social Security Administration Strategic Sustainability Performance Plan ....... C-1
Appendix D – Scope and Methodology ..................................................................................... D-1
Appendix E – Major Contributors...............................................................................................E-1




SSA’s Implementation and Compliance with Energy Conservation Policies (A-15-13-32104)
ABBREVIATIONS
Btu                 British Thermal Unit

CEQ                 Council on Environmental Quality

C.F.R.              Code of Federal Regulations

DOE                 Department of Energy

ECO                 Energy Conservation Opportunities

EO                  Executive Order

EPEAT               Electronic Product Environmental Assessment Tool

Fed. Reg.           Federal Register

FEMP                Federal Energy Management Program

FY                  Fiscal Year

GHG                 Greenhouse Gas

GSA                 General Services Administration

GSF                 Gross Square Foot

IT                  Information Technology

NCC                 National Computer Center

OFSM                Office of Facilities and Supply Management

OMB                 Office of Management and Budget

Pub. L. No.         Public Law Number

SSC                 Second Support Center

SSPP                Strategic Sustainability Performance Plan

SSA                 Social Security Administration

U.S.C.              United States Code




SSA’s Implementation and Compliance with Energy Conservation Policies (A-15-13-32104)
OBJECTIVES
Our objectives were to determine (1) whether the Social Security Administration (SSA) met all
requirements set forth in climate-change legislation and (2) how SSA implemented the
requirements.

BACKGROUND
On January 24, 2007, the President signed Executive Order (EO) 13423, Strengthening Federal
Environmental, Energy, and Transportation Management. 1 This EO requires that Federal
agencies lead by example in advancing the nation’s energy security and environmental
performance by achieving several goals. The President signed EO 13514, Federal Leadership in
Environmental, Energy, and Economic Performance, 2 on October 5, 2009 to enhance EO 13423.
EO 13514 introduces new greenhouse gas (GHG) emission management requirements; expands
water reduction requirements for Federal agencies; and addresses waste diversion, local
planning, sustainable buildings, environmental management, and electronics stewardship.

EO 13514 requires that each agency develop, implement, and annually update an integrated
Strategic Sustainability Performance Plan (SSPP) that will prioritize agency actions based on
life-cycle return on investment. Each agency SSPP and update is subject to approval by the
Director of the Office of Management and Budget (OMB). Each agency plan shall

•     include a policy statement committing the agency to compliance with environmental and
      energy statutes, regulations, and EOs;

•     achieve the sustainability goals and targets, including GHG reduction targets, established
      under section 2 of EO 13514;

•     identify agency activities, policies, plans, procedures, and practices relevant to the agency’s
      implementation of this order and, where necessary, provide for development and
      implementation of new or revised polices, plans, procedures, and practices;

•     identify specific agency goals, a schedule, milestones, and approaches for achieving results
      and quantifiable metrics for agency implementation of this EO;

•     outline planned actions to provide information about agency progress and performance with
      respect to achieving the goals of this EO on a publicly available Federal Website;

•     incorporate actions for achieving progress metrics identified by the Director of OMB and the
      Chair of the Council on Environmental Quality (CEQ); and


1
    72 Fed. Reg. 17, 3919 (January 26, 2007), 48 C.F.R. 970.5223-6.
2
    74 Fed. Reg. 194, 52117 (October 8, 2009).




SSA’s Implementation and Compliance with Energy Conservation Policies (A-15-13-32104)                   1
•     identify, in annual updates, opportunities to improve and evaluate past performance to extend
      or expand projects that have net life-cycle benefits and reassess or discontinue under-
      performing projects. 3

SSA
At the time of our review, SSA was leasing approximately 29 million square feet of space at its
Headquarters and regional/field offices from the General Services Administration (GSA) to
conduct its business operations. In most cases, GSA is responsible for operating, maintaining,
repairing, and protecting buildings. However, in some cases, GSA has transferred these
functions to the agency that occupies the building, such as SSA. The Delegations Agreements 4
program gives SSA the authority to operate, maintain, repair, preserve, alter, and protect the
Government-owned or leased buildings and program-designated grounds. GSA and SSA sign
Delegations Agreements for each building in the program. SSA solely occupies all 18 delegated
buildings. For a list of SSA-delegated buildings, refer to Appendix A.

SSA reports energy performance data for the 18 delegated buildings and the Second Support
Center (SSC). However, SSA reports on environmental stewardship nationwide for several
areas. According to the Agency, GSA has reporting accountability to OMB on energy for non-
delegated buildings. SSA is not responsible for energy improvements to non-delegated
buildings.

In a February 25, 2013 letter, the Bicameral Task Force on Climate Change requested our
assistance in determining whether SSA is taking the necessary steps to confront the growing
threat of climate change. See Appendix B for a copy of the congressional letter.

RESULTS OF REVIEW
Based on SSA’s implementation of various requirements as reported in the agency SSPP and our
inquiries with SSA, we aggregated the information to respond to the February 25, 2013
congressional inquiry. SSA also annually submits the performance data to OMB and the CEQ
chair for their review and approval. See Appendix C for a summary of this report. Because of
the limited timeframe for this response, we did not test the validity of the information SSA
provided. 5




3
    74 Fed. Reg. 194, 52122-52123, Section 8.
4
 Laws authorizing such delegations include Section 205(d) of the Federal Property and Administrative Services Act
of 1949, as amended; the Public Buildings Act of 1959; and the Public Buildings Amendment of 1972.
5
    See Appendix D for more information on the scope and methodology.




SSA’s Implementation and Compliance with Energy Conservation Policies (A-15-13-32104)                           2
Question 1: Identify the Existing Requirements in Legislation, Regulation,
Executive Order, and Other Directives that Apply to the Government Entity
You Oversee.
We identified the following energy conservation policies that apply to SSA.

•      EO 13423, Strengthening Federal Environmental, Energy, and Transportation Management,
       January 2007 6

•      EO 13514, Federal Leadership in Environmental, Energy, and Economic Performance,
       October 2009 7

•      Energy Policy Act of 2005 8

•      Energy Independence and Security Act of 2007 9

In addition, we inquired with the Agency’s General Counsel and Office of Facilities and Supply
Management (OFSM) to determine whether any additional energy conservation policies apply to
the Agency. General Counsel had no legal comments and OFSM referred us to the Department
of Energy and the CEQ chair.

Question 2: Assess Whether it is Meeting These Requirements.
Energy Efficiency
According to EO 13423, agencies are required to reduce energy intensity 10 30 percent by 2015
compared to a Fiscal Year (FY) 2003 baseline. 11 In the SSPP the Agency issued for FY 2011,
the FY 2003 baseline was 124,300 British Thermal Units (Btu) per gross square foot (GSF). As
of FY 2011, SSA had reduced energy intensity to 122,077 Btu/GSF or 1.8 percent. Because of
the energy reductions made before the baseline was calculated and the employee population




6
    72 Fed. Reg. 17, 3919 (January 26, 2007), 48 C.F.R. 970.5223-6.
7
    74 Fed. Reg. 194, 52117 (October 8, 2009).
8
    Pub. L. No. 109-58, 42 U.S.C. 15801 note.
9
    Pub. L. No. 110-140.
10
  Energy intensity is the energy consumption per gross square foot of building space, including industrial and
laboratory facilities. For energy intensity purposes, the Agency reports on the 18-delegated buildings excluding the
National Computer Center (NCC) and SSC.
11
     72 Fed. Reg. 17, 3919, Section 2(a) (ii), 48 C.F.R. 970.5223-6.




SSA’s Implementation and Compliance with Energy Conservation Policies (A-15-13-32104)                                  3
increased in FYs 2010 and 2011, SSA did not expect to reach the 30-percent energy intensity
reduction goal by FY 2015, as required by the EOs.

GHG emissions also reflect an agency’s energy efficiency. EO 13514 requires that agencies
establish and report to the CEQ chair and the Director of OMB a percentage reduction target for
reductions of scope 1, 12 2, 13 and 3 14 GHG emissions in absolute terms 15 by FY 2020, relative to a
FY 2008 baseline. 16 SSA set a goal to achieve a 21-percent reduction in scope 1 and 2 GHG
emissions by FY 2020 and a 13-percent reduction in scope 3 GHG emissions. According to the
FY 2011 performance, as reported in the SSPP, SSA decreased scope 1 and 2 GHG emissions by
25.5 percent; however, scope 3 GHG emissions increased by 0.9 percent. Based on the SSPP,
scope 3 GHG emissions increased because of the addition of 2,000 new commuters nationwide
in FYs 2010 and 2011. According to the Agency, “. . . we do not expect the addition of these
commuters to have a negative effect on our long-term goal of reducing overall scope 3 emissions
13 percent by FY 2020.” Although the additional employees were added using funding from the
American Recovery and Reinvestment Act, SSA’s employee count has decreased over the past
2 FYs. Table 1 lists the employee counts from FYs 2009 through 2012.

                                       Table 1: SSA Employee Count 17
               Year               Number of SSA                  Number of OIG                    Total
                                    Employees                      Employees
               2009                  67,462                          575                         68,037
               2010                  70,202                          588                         70,790
               2011                  66,873                          587                         67,460
               2012                  64,907                          571                         65,478




12
  This refers to direct GHG emissions from sources that are owned or controlled by the Federal agency. For scope
1 emissions, the Agency reports on the 18 delegated buildings.
13
  This refers to direct GHG emissions resulting from the generation of electricity, heat, or steam purchased by a
Federal agency. For scope 2 emissions, the Agency reports on the 18 delegated buildings.
14
  This refers to GHG emissions from sources not owned or directly controlled by a Federal agency but related to
agency activities such as vendor supply chains, delivery services, and employee travel and commuting. For scope
3 emissions, the Agency reports on Agency-wide data for the employee commuting and travel factors but only on
the 18 delegated buildings for the remaining factors.
15
  Absolute GHG emissions mean total greenhouse gas emissions without normalization for activity levels and
include any allowable consideration of sequestration.
16
     74 Fed. Reg. 194, 52117-52118, Section 2(a) and (b), (October 8, 2009).
17
     These counts include full-time permanent, temporary, and part-time employees.




SSA’s Implementation and Compliance with Energy Conservation Policies (A-15-13-32104)                               4
We met with the Agency to discuss the processes it had in place to address these reduction
targets and determine whether more recent performance information was available. According
to the FY 2012 Energy Management Performance Summary provided by SSA, the energy
intensity for FY 2012 decreased by 22.1 percent compared to the FY 2003 baseline. This met
the Agency’s target of a 21-percent reduction in FY 2012 and was on track to reach the target of
a 30-percent reduction by FY 2015, as required by EO 13423. We asked management what
improvements the Agency made to reach the goal since there was only a 1.8 percent decrease in
energy intensity in FY 2011. According to the Agency, for FY 2012 reporting, it excluded the
NCC and SSC from calculating energy intensity. The FY 2003 baseline was also recalculated to
reflect the change in reporting. Over 50 percent of the electrical load at the NCC and 90 percent
at the SSC was dedicated to process-driven critical information technology (IT) computing. SSA
believed the energy requirements were impractical because of the mission criticality of the IT
equipment. Therefore, SSA requested the Department of Energy (DOE) allow the exclusion of
the NCC and SSC for reporting purposes. SSA also stated that improvements to the heating,
ventilation, and air conditioning system as well as improvements in lighting throughout the
Headquarters buildings improved energy intensity performance.

For FY 2012 performance, SSA also reported a significant improvement in the scope 3 GHG
emissions, reducing emissions by 12.3 percent in relation to the FY 2008 baseline. Because of
limited travel and a hiring freeze, scope 3 emissions from air and ground travel and employee
commuting decreased between FYs 2011 and 2012. The Agency noted that these areas were
only a minor factor that affected the reduction in scope 3 emissions.

Renewable Energy
Policy requires that an agency ensure that at least half the statutorily required renewable energy 18
consumed by the agency in a FY come from new renewable sources and, to the extent feasible,
implement renewable energy generation projects on agency property for agency use. 19 In
addition, the Energy Policy Act of 2005 requires that renewable energy make up not less than
5 percent in FYs 2010 to 2012 and not less than 7.5 percent in FY 2013 and each FY thereafter,
of the total amount of electric energy consumed during a FY. 20 According to the Agency’s
SSPP, it anticipates it will be able to achieve the requirement to obtain 7.5 percent of electricity
from renewable sources from FY 2013 onward. According to data provided by the Agency, as of
FY 2011, 17.7 percent of electricity used was from renewable sources, and in FY 2012,
10 percent of electricity used came from renewable energy sources.



18
  This refers to energy produced by solar, wind, biomass, landfill gas, ocean (including tidal, wave, current, and
thermal), geothermal, municipal solid waste, or new hydroelectric generation capacity achieved from increased
efficiency or additions of new capacity at an existing hydroelectric project. The Agency’s reporting for renewable
energy includes data from the 18 delegated buildings.
19
     72 Fed. Reg. 17, 3919, Section 2(b), 48 C.F.R. 970.5223-6.
20
     Pub. L. No. 109-58, 42 U.S.C. 15852, Section 203(a) (2) and (a) (3).




SSA’s Implementation and Compliance with Energy Conservation Policies (A-15-13-32104)                                5
To comply with this requirement, the Agency has implemented three renewable energy projects
in the delegated buildings. These projects resulted in adding rooftop photovoltaic array 21 in three
buildings and solar water heating and urban wind turbines at one building. The Agency has met
the requirements for the past 2 FYs and plans to meet the requirement for FY 2013.

Water Consumption Intensity
According to EOs 13423 and 13514, an agency is required to reduce water consumption
intensity, 22 relative to the baseline of the agency’s water consumption in FY 2007, through
life-cycle, cost-effective measures by 2 percent annually through FY 2020, or 26 percent by the
end of FY 2020. 23 An agency is also required to reduce industrial, landscaping, and agricultural
water consumption by 2 percent annually or 20 percent by the end of FY 2020 relative to a
baseline of the agency’s water consumption in FY 2010. 24

According to the Agency’s SSPP, SSA uses no water for industrial or agricultural purposes and
uses limited water for landscaping since the majority of the delegated buildings has native
grasses and plants that require little or no irrigation. The FY 2007 baseline established for
potable water consumption was 17.8 gallons per square foot. For FY 2011, SSA reduced potable
water consumption by 15.8 percent compared to the baseline. According to SSA’s FY 2012
Energy Management Performance Summary, it used 11.4 gallons per square foot in FY 2012
compared to the 17.8 gallons per square foot baseline, a reduction of 35.6 percent. These results
have already exceeded the EOs’ requirement for a 26-percent reduction by the end of FY 2020.
Since the Agency does not meter landscaping water consumption separately from other water
usage, it plans to install sub-metering to determine the amount of outdoor water use. The
Agency also plans to determine whether it should install water sensors at Headquarters to
determine the need for watering. In addition, the Agency has implemented strategies at two field
facilities to reuse ground water.

Sustainable Buildings
According to EO 13514, an agency is required to implement high performance sustainable
Federal building design, construction, operation and management, maintenance, and
deconstruction. 25 This includes ensuring that all new construction, major renovation, or repair



21
     A photovoltaic array is a linked collection of solar panels.
22
  This refers to water consumption per square foot of building space. The Agency’s reporting for water intensity
includes data from the 18-delegated buildings and the SSC.
23
     74 Fed. Reg. 194, 52118, Section 2(d) (i).
24
     Id., Section 2(d) (ii).
25
     Id., Section 2(g).




SSA’s Implementation and Compliance with Energy Conservation Policies (A-15-13-32104)                              6
and alteration to Federal buildings complies with the Guiding Principles for Federal Leadership
in High Performance and Sustainable Buildings (Guiding Principles).

As noted in SSA’s SSPP, SSA does not report on compliance with the Guiding Principles
because it does not own any facilities. GSA has delegated the responsibility for managing the
operations and maintenance of some larger facilities to SSA; however, SSA has requested that
GSA obtain third-party certification to meet the requirements of the Guiding Principles.

Federal Fleet Management
Policy requires that if an agency operates a fleet of at least 20 motor vehicles, the agency,
relative to agency baselines for FY 2005, will

1. reduce the fleet’s total consumption of petroleum products by 2 percent annually through the
   end of FY 2015;

2. increase the total fuel consumption that is non-petroleum-based by 10 percent annually; and

3. use plug-in hybrid vehicles when they are commercially available at a cost reasonably
   comparable to non-plug-in-hybrid vehicles. 26

According to the Agency’s SSPP for FY 2011, the FY 2005 baseline for petroleum use was
374,437 gasoline gallon equivalents, and the baseline for alternative fuel use (gasoline gallon
equivalent) was 2,365. For FY 2011, SSA reported a 31.6-percent reduction in petroleum use
and an increase of 3,810.7 percent in the use of alternative fuel consumption. 27 SSA has
strategies in place to help ensure positive results in this area. For instance, the Agency plans to
reduce the fleet size and ensure the timely return underutilized vehicles to GSA. SSA will
replace all eligible gasoline vehicles with alternative fuel vehicles or hybrids as it renews leases
and it uses alternative fuels for all flex-fuel vehicles.

Electronics Stewardship
EO 13514 requires that Federal agencies promote electronics stewardship by

•      ensuring procurement preference for Electronic Product Environmental Assessment Tool
       (EPEAT)-registered electronic products;

•      establishing and implementing policies to enable power management, duplex printing, and
       other energy-efficient or environmentally preferable features on all eligible agency electronic
       products;


26
     72 Fed. Reg. 17, 3919, Section 2(g), 48 C.F.R. 970.5223-6.
27
 The Agency’s reporting for fleet management includes Agency-wide data including the Office of the Inspector
General’s fleet.




SSA’s Implementation and Compliance with Energy Conservation Policies (A-15-13-32104)                          7
•      employing environmentally sound practices with respect to the agency’s disposition of all
       agency excess or surplus electronic products;

•      ensuring the procurement of Energy Star and Federal Energy Management Program (FEMP)
       designated electronic equipment; and

•      implementing best management practices for energy-efficient management of servers and
       Federal data centers. 28

According to SSA’s SSPP, in FY 2011, 100 percent of covered agency-wide electronics
acquisitions was FEMP-designated, Energy Star qualified, and EPEAT-registered. To improve
in this area, SSA will install sub-meters in FY 2013 for electricity in the data centers and
integrate the meters into energy information systems. The sub-meters will help calculate the
power use effectiveness by differentiating the mechanical electric load and the critical
information technology load. Since July 2012, the Agency has reported to OMB that it was
100-percent compliant with EPEAT requirements by converting all agency-wide printers to
duplex-enabled and implementing power management on all computers. The Agency also plans
to install water meters.

Procurement
As noted in EO 13514, Federal agencies are to advance sustainable acquisition to ensure
95 percent of new agency-wide contract actions including task and delivery orders, for products
and services with the exception of acquisition of weapon systems, are energy-efficient, water-
efficient, bio-based, environmentally preferable, non-ozone depleting, and non-toxic or less-toxic
alternatives as well as contain recycled content. 29 To ensure compliance with this requirement,
the Agency reviewed a sample of contract actions for the first and second quarters in FY 2012.
The sample represented 5 percent of the eligible environmentally related contract actions. Based
on this review, the Agency determined that all sampled contract actions were environmentally
compliant. The Agency stated, “. . . the limitations of current acquisition management systems,
such as the Federal Procurement Data System, create a challenge for the complete tracking of
green purchasing clauses”; therefore, the Agency has planned to continue reviewing at least
5 percent of eligible contracts each quarter. The SSPP states that the Agency will include the
95-percent requirement in the next revision of the green purchasing plan.




28
     74 Fed. Reg. 194, 52120, Section 2(i).
29
     Id., 52119, Section 2(h).




SSA’s Implementation and Compliance with Energy Conservation Policies (A-15-13-32104)              8
Pollution Prevention and Waste Reduction
EO 13514 requires that Federal agencies promote pollution prevention and eliminate waste.
Some of the requirements include

•      minimizing the generation of waste and pollutants through source reduction;

•      diverting at least 50 percent of non-hazardous solid waste, excluding construction and
       demolition debris, by the end of FY 2015;

•      diverting at least 50 percent of construction and demolition materials and debris by the end of
       FY 2015;

•      reducing printing paper use and acquiring uncoated printing and writing paper containing at
       least 30 percent postconsumer fiber; and

•      reducing and minimizing the quantity of toxic and hazardous chemicals and materials
       acquired, used, or disposed of. 30

Because of the Delegations Agreements, SSA is only responsible for the waste management in
the delegated buildings. Because GSA owns the buildings, SSA does not directly construct or
renovate them or report on the construction and demolition debris portions of the requirements.
As reported in the SSPP, in FY 2011, the Agency diverted 1,670 tons (70 percent) of non-
hazardous solid waste, exceeding the EO goal of 50 percent. SSA stated that this goal was
primarily reached through active recycling at all the delegated facilities. The Agency has also
reported that 91 to 100 percent of printing and writing paper purchased is made of at least
30 percent postconsumer fiber. According to the SSPP, the Agency planned to implement
single-stream recycling at Headquarters to increase the amount of recyclable materials diverted
from the waste stream resulting in a projected 10-percent increase in the Headquarters diversion
rate.

Because of the improvements SSA has implemented, the Agency has reported to OMB in the
current reporting cycle that it is on task to meet all the targets required through the various
climate change policies. SSA also informed us that it has contracted with Dynamic Energy
Concepts, Inc., to verify the energy and water billings for FYs 2011 and 2012. This will help
SSA ensure the utility companies are properly billing the Agency so it can report accurate
information to OMB. SSA plans to continue working with GSA and OMB to improve the
Agency’s energy efficiency.




30
     Id., 52118, Section 2(e).




SSA’s Implementation and Compliance with Energy Conservation Policies (A-15-13-32104)                9
Question 3: If it is Not Fully Meeting the Requirements, Make
Recommendations for Improving its Performance.
The Agency has completed and scheduled several energy audits at Headquarters and regional
office buildings. Based on results from an energy audit completed by Science Applications
International Corporation, the Agency has an implementation plan in place to address 81 percent
of the Energy Conservation Opportunities (ECO) identified in that audit by the end of FY 2013. 31
With these implemented actions in place, the Agency expects to save approximately 21 million
kilowatt hours annually, totaling about 34.5 percent of the main campus’ use in FY 2010. The
Agency also anticipates saving 10 million gallons of water annually, totaling about 37 percent of
the main campus’ use in FY 2010. As previously noted, for FY 2012, the Agency reduced
energy intensity by 22.1 percent and water intensity by 35.6 percent in part due to the
implementation of the ECOs identified in the energy audit.

We recommend that the Agency continue using the resources available for these energy audits to
identify areas of improvement and seek funding to allow the implementation of the
improvements recognized through these audits.

Question 4: The Authorities the Government Entity You Oversee Has to
Reduce Emissions of Heat-Trapping Pollution.
We did not identify additional authorities for SSA to reduce emissions of heat-trapping pollution
other than the regulations noted in response to Question 1.

Question 5: Its Authorities to Make the Nation More Resilient to the Effects
of Climate Change.
The Agency is making strides to meet all requirements of the noted authorities. OMB and DOE
approved the Agency’s performance data submitted for FY 2012 where SSA reported having met
all the requirements noted in the climate change policies. In addition, the Agency is continuing
to work with GSA/FEMP to meet the Energy Savings Performance Contract goal and ensure all
major renovations comply with the Guiding Principles. In response to our draft report, the
Agency provided the following response.




31
  This audit focused on the following buildings at the Headquarters complex: (1) Altmeyer, (2) East High Rise,
(3) East Low Rise, (4) Operations, (5) Annex, (6) West High Rise, (7) West Low Rise, (8) Supply Building,
(9) Child Care Center, (10) Salt Dome Maintenance Warehouse, and (11) 10 Guard Shacks.




SSA’s Implementation and Compliance with Energy Conservation Policies (A-15-13-32104)                            10
        The Agency is making strides to meet all requirements of the noted authorities. In
        March 2011, CEQ issued instructions for federal agencies regarding Climate Change
        Adaptation Planning, and in March 2012, it issued further instructions requiring
        agencies to complete a climate change vulnerability analysis and an FY 2013 Climate
        Change Adaptation Plan, which is to be attached to the Agency’s SSPP submitted in
        June 2013. SSA is in compliance with these requirements, having developed its
        FY 2013 Climate Change Adaptation Plan in the first quarter of FY 2013. SSA plans
        to have the final version approved by the Senior Sustainability Officer for submittal to
        CEQ and OMB with the SSPP in June. In addition to the heart of the plan, which
        consists of a set of adaptation goals and actions, the plan includes the process used for
        adaptation planning, a summary of scientific projections of coming change, and the
        vulnerability and the agency’s risk assessments conducted in the process of
        developing the plan.

The Agency could not provide us with the FY 2013 Climate Change Adaptation Plan for our
review and validation because it is still in draft form.

Question 6: The Most Effective Additional Steps it Could Take to Reduce
Emissions or Strengthen Resiliency.
As noted in response to Question 3, the Agency has conducted and scheduled several energy
audits. Site visits for an audit were completed during FY 2010, and in FY 2012 the Agency
started an Energy Savings Performance Contract at Headquarters that included the NCC. By
continuing to conduct these audits, the Agency will identify key areas of improvement that will
help reduce emissions and strengthen resiliency.

We initiated an audit of SSA’s unused office space at Headquarters. Our objective is to identify
unused office space in buildings at the SSA Headquarters in Woodlawn, Maryland.

CONCLUSIONS
Although we did not validate all the supporting documentation provided by the Agency, based
on OMB’s review and approval of the Agency performance, we believe SSA is meeting all the
requirements set forth in various climate change legislation. Although SSA appears to be on
track to reach all the goals set forth in the applicable legislation, SSA should continue working
with GSA and OMB to improve its energy efficiency. We also noted that the Agency’s
performance results for the various energy measures included both data from the 18 delegated
buildings as well as Agency-wide data. The Agency should consider defining in the SSPP what
data are used for each measure.




SSA’s Implementation and Compliance with Energy Conservation Policies (A-15-13-32104)               11
                                      APPENDICES




SSA’s Implementation and Compliance with Energy Conservation Policies (A-15-13-32104)
Appendix A – SOCIAL SECURITY ADMINISTRATION-
             DELEGATED BUILDINGS
               Table A–1: Social Security Administration-Delegated Buildings
   Count                       Office Location             Federal/Leased
     1       ALTMEYER BLDG, MD                                Federal
     2       OPERATIONS/ROBERT BALL, MD                       Federal
     3       ANNEX BLDG, MD                                   Federal
     4       SUPPLY BLDG, MD                                  Federal
     5       EAST BLDG – LOW, MD                              Federal
     6       EAST BLDG – HIGH, MD                             Federal
     7       NCC, MD                                          Federal
     8       WEST BLDG – LOW, MD                              Federal
     9       WEST BLDG – HIGH, MD                             Federal
    10       UTILITY, MD                                      Federal
    11       SSA METRO WEST, MD                               Federal
    12       SECURITY WEST BLDG, MD                            Leased
    13       CHILD CARE CENTER, MD                            Federal
    14       FEDERAL BUILDING (WBDOC), PA                     Federal
    15       FRANK HAGEL BUILDING (WPSC), CA                  Federal
    16       JOSEPH P ADDABBO FEDERAL BUILDING (NEPSC), NY    Federal
    17       MATPSC, PA                                       Federal
    18       HAROLD WASHINGTON CENTER, IL (GLPSC)             Federal




SSA’s Implementation and Compliance with Energy Conservation Policies (A-15-13-32104)   A-1
Appendix B – FEBRUARY 25, 2013 CONGRESSIONAL REQUEST




SSA’s Implementation and Compliance with Energy Conservation Policies (A-15-13-32104)   B-1
SSA’s Implementation and Compliance with Energy Conservation Policies (A-15-13-32104)   B-2
Appendix C – SOCIAL SECURITY ADMINISTRATION
             STRATEGIC SUSTAINABILITY PERFORMANCE
             PLAN




SSA’s Implementation and Compliance with Energy Conservation Policies (A-15-13-32104)   C-1
SSA’s Implementation and Compliance with Energy Conservation Policies (A-15-13-32104)   C-2
SSA’s Implementation and Compliance with Energy Conservation Policies (A-15-13-32104)   C-3
SSA’s Implementation and Compliance with Energy Conservation Policies (A-15-13-32104)   C-4
SSA’s Implementation and Compliance with Energy Conservation Policies (A-15-13-32104)   C-5
SSA’s Implementation and Compliance with Energy Conservation Policies (A-15-13-32104)   C-6
SSA’s Implementation and Compliance with Energy Conservation Policies (A-15-13-32104)   C-7
SSA’s Implementation and Compliance with Energy Conservation Policies (A-15-13-32104)   C-8
SSA’s Implementation and Compliance with Energy Conservation Policies (A-15-13-32104)   C-9
SSA’s Implementation and Compliance with Energy Conservation Policies (A-15-13-32104)   C-10
SSA’s Implementation and Compliance with Energy Conservation Policies (A-15-13-32104)   C-11
SSA’s Implementation and Compliance with Energy Conservation Policies (A-15-13-32104)   C-12
SSA’s Implementation and Compliance with Energy Conservation Policies (A-15-13-32104)   C-13
SSA’s Implementation and Compliance with Energy Conservation Policies (A-15-13-32104)   C-14
SSA’s Implementation and Compliance with Energy Conservation Policies (A-15-13-32104)   C-15
SSA’s Implementation and Compliance with Energy Conservation Policies (A-15-13-32104)   C-16
Appendix D – SCOPE AND METHODOLOGY
To accomplish our objectives, we:

•   Reviewed applicable Federal laws and regulations.

•   Obtained performance data from Agency staff.

•   Interviewed Agency staff about the implementation projects to address the legislative
    requirements.

•   Reviewed the Agency’s performance data to ensure compliance with applicable legislation.

We did not validate the computerized data used during our review; however, we determined the
data were sufficiently reliable given our objective, and the intended use of the data should not
lead to incorrect or unintentional conclusions.

We performed our review during March 2013 in Baltimore, Maryland. We conducted our
review in accordance with the Council of the Inspectors General on Integrity and Efficiency’s
Quality Standards for Inspection and Evaluation.




SSA’s Implementation and Compliance with Energy Conservation Policies (A-15-13-32104)           D-1
Appendix E – MAJOR CONTRIBUTORS
Vicki Vetter, Director, Financial Audit Division

Judith Kammer, Audit Manager, Financial Audit Division

Kelly Stankus, Senior Auditor




SSA’s Implementation and Compliance with Energy Conservation Policies (A-15-13-32104)   E-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
